la
Appendix A
NOT RECOMMENDED FOR PUBLICATION
No. 19-2487
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

filed

Aug 19,2020
DEBORAH S. HUNT, Clerk

JOSEPH FINDLERIV,
Plaintiff-Appellant,
v.
CHRISTOPHER WRAY, Director of
the Federal Bureau of Investigation,
individually, and TIMOTHY SLATER,
Special Agent in Charge, Detroit Field
Office of the Federal Bureau of
Investigation, individually,
Defendants-Appellees,
and
DOE 1, Special Agent, Detroit Field Office
of the Federal Bureau of Investigation,
individually, et al.,
Defendants.
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE EASTERN

2a
DISTRICT OF MICHIGAN
ORDER
Before: SILER, MOORE, and BUSH, Circuit Judges.
Joseph Findler IV, a pro se Michigan resident,
appeals the district court’s order granting the
defendants’ motion to dismiss. This case has been
referred to a panel of the court that, upon
examination, unanimously agrees that oral argument
is not needed. See Fed. R. App. P. 34(a).
In May 2019, Findler brought this civil action,
pursuant to Bivens v. Six Unknown Named Agents of
the Federal Bureau of Narcotics, 403 U.S. 388 (1971),
against Christopher Wray, the Director of the FBI;
Timothy Slater, the Special Agent in charge of the
FBI’s Detroit Field Office; approximately 100
unknown
FBI
employees
or
agents;
and
approximately 400 other unknown defendants. He
alleged that they were involved in a grand conspiracy
to “terrorize, stalk, harass and conduct psychological
warfare” against him by means of a clandestine
Facebook group with 100 million members. He
claimed that the defendants tracked his movements,
accessed and stole data from his electronic devices and
published it on the Facebook group’s webpage, and
conducted audio and video surveillance of him while
he was in his car and in various hotel rooms. He
further alleged that Wray and Slater were
deliberately indifferent to the activities conducted by
their subordinates. Findler therefore claimed
violations of his Fourth, Fifth, and Fourteenth
Amendment rights, as well as his right to privacy.

3a
Wray and Slater moved to dismiss the complaint
for lack of subject-matter jurisdiction or for failing to
state a claim upon which relief can be granted,
pursuant to Federal Rules of Civil Procedure 12(b)(1)
and (b)(6). Findler then moved to file an amended
complaint, which raised similar claims as the original
complaint but added some additional context and
details. A magistrate judge recommended that leave
to amend the complaint should be denied and that the
complaint should be dismissed for lack of subjectmatter jurisdiction, or, in the alternative, for failing to
state a claim. Over Findler’s objections, the district
court adopted the report and recommendation, denied
leave to amend, and dismissed the complaint with
prejudice.
On appeal, Findler argues that the district court
erred by: (1) determining that it lacked subject-matter
jurisdiction; (2) determining that he had failed to state
a plausible claim for relief; (3) denying his motion to
amend the complaint; and (4) dismissing his
complaint with prejudice when it had determined that
it lacked subject-matter jurisdiction.
Findler first contends that his claims were not so
frivolous or lacking in merit as to deprive the district
court of subject-matter jurisdiction. We review de
novo a district court’s decision to dismiss a case for
lack of subject-matter jurisdiction under Rule
12(b)(1). Wagenknecht v. United States, 533 F.3d 412,
415 (6th Cir. 2008). A district court may dismiss a
complaint for lack of subject-matter jurisdiction
“when the allegations of a complaint are totally
implausible, attenuated, unsubstantial, frivolous,
devoid of merit, or no longer open to discussion.” Apple
v. Glenn, 183 F.3d 477, 479 (6th Cir. 1999) (per
curiam). Although the district court adopted the

4a
magistrate judge’s report and recommendation, which
included alternative recommendations to dismiss
under either Rule 12(b)(1) or Rule 12(b)(6), it focused
its analysis on the fact that Findler had failed to state
a cognizable claim for relief and had failed to allege
facts that would raise a reasonable expectation that
discovery would reveal evidence of illegal conduct.
Accordingly, we construe the dismissal as having been
made under Rule 12(b)(6). Moreover, the notion that
the FBI might be surveilling someone is not so devoid
of merit as to wholly deprive the district court of
subject matter jurisdiction.
Findler must still state a plausible claim for relief,
however. We review de novo a district court’s
judgment granting a Rule 12(b)(6) motion to dismiss.
See Bickerstaff v. Lucarelli, 830 F.3d 388, 395-96 (6th
Cir. 2016). To avoid dismissal, “a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim for relief that is plausible on its face.’”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
Pleadings drafted by pro se litigants should be held to
a less stringent standard than those drafted by
lawyers and should be liberally construed, Martin v.
Overton, 391 F.3d 710, 712 (6th Cir. 2004), but pro se
litigants are not exempt from the requirements of the
Federal Rules of Civil Procedure, Wells v. Brown, 891
F.2d 591, 594 (6th Cir. 1989).
The facts alleged in the complaint and the
proposed amended complaint do not support a
reasonable inference that the defendants violated
Findler’s rights. Findler based his complaint on the
premise that he is being stalked and harassed by a
clandestine Facebook group that he cannot identify;
and he believes that the Facebook group is monitoring

5a
him and accessing his electronic devices and
publishing his personal information to the Facebook
group. He marshalled some facts that he claimed
support this belief, such as: (1) random people would
greet him, ask him if he was okay, and tell him thank
you; (2) the desk agent at the FBI’s Detroit Field
Office agreed with him that cyber harassment and
stalking is illegal and noted that the FBI investigates
public corruption; (3) a waitress told him “at least it’s
over” on the night that he believed that the Facebook
group had been temporarily deleted; (4) the FBI
special agent that he spoke with knew that an
inaccessible Facebook group is actually called a
“closed” Facebook group, knew that Findler had put in
a Freedom of Information Act request, and “looked
down and away with eyes wide open as [Findler] left”;
(5) one of Findler’s co-workers told him “I’m happy to
help, lol,” which led him to believe that this coworker
must have gone to the FBI concerning the Facebook
group; (6) he received indications that he might lose
his job, and his supervisor told him “I’m so glad it’s
over, I swear it was Tina”; (7) a coworker told him that
he knew about the clandestine Facebook group but
could not tell him anything about it because he would
lose his job or go to jail; (8) private attorneys that he
had contacted somehow knew that he was not going to
be terminated and that he had put in a Freedom of
Information Act request; (9) he noticed unusually high
network traffic traversing through his home private
network; (10) the battery power of his electronic
devices would fluctuate randomly; and (11) the FBI
has the capability to surveil and monitor him on the
scale that he alleged. All of Findler’s remaining
allegations are conclusory assumptions. Taking these
allegations together, they do not lead to a plausible
inference that Wray, Slater, or any other FBI or

6a
federal official had any involvement in violating his
constitutional rights. In fact, they do not support a
plausible conclusion that his constitutional rights
were violated at all. And because Findler’s proposed
amended complaint did not state a plausible claim for
relief, the district court did not err by declining to
grant Findler permission to file it. See Carson v. U.S.
Office of Special Counsel, 633 F.3d 487, 495 (6th Cir.
2011). Finally, the district court did not abuse its
discretion by dismissing the complaint with prejudice
under Rule 12(b)(6). See Atkinson v. Morgan Asset
Mgmt., Inc., 658 F.3d 549, 553 (6th Cir. 2011).
For the reasons discussed above, we AFFIRM the
district court’s judgment.

ENTERED BY ORDER OF THE COURT
Deborah S. Hunt, Clerk

7a
Appendix B
Case No. 19-cvll498
Hon. Matthew F. Leitman

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JOSEPH FINDLER IV,

Plaintiff,
vs.
CHRISTOPHER WRAY, et al.,
Defendant.
JUDGMENT
For the reasons stated in the order issued on this
date, it is ORDERED and ADJUDGED that
judgment is entered in favor of the Defendants and
against Plaintiff.
DAVID J. WEAVER
CLERK OF COURT
By: s/Hollv A. Monda
Deputy Clerk

8a
Approved:
s/Matthew F. Leitman
MATTHEW F. LEITMAN
United States District Judge
Dated: December 20, 2019
Flint, Michigan

9a
Appendix C
Case No. 19-cvll498
Hon. Matthew F. Leitman

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JOSEPH FINDLERIV,
Plaintiff,
vs.
CHRISTOPHER WRAY, et al.
Defendant.

ORDER (1) ADOPTING RECOMMENDED
DISPOSITION OF REPORT AND
RECOMMENDATION (ECF NO. 26);
(2) OVERRULING PLAINTIFFS
OBJECTIONS TO REPORT AND
RECOMMENDATION (ECF NO. 27); (3)
DENYING PLAINTIFFS MOTION FOR
LEAVE TO FILE FIRST AMENDED
COMPLAINT (ECF NO. 23); AND (4)
GRANTING DEFENDANTS’ MOTION TO
DISMISS (ECF NO. 13.)

10a
In this action, Plaintiff Joseph Findler IV alleges
that Defendants Christopher Wray, the Director of
the Federal Bureau of Investigation, Timothy Slater,
the Special Agent in charge of the FBI’s Detroit Field
Office, and 500 John Doe Defendants (including
approximately 100 law enforcement officers) have
monitored his movements and facial expressions,
rifled through his emails and other personal electronic
information, and otherwise subjected him to “a
widespread harassment and stalking campaign” or
were deliberately indifferent to that campaign.
(Compl. at f8, ECF No. 1, PageID.4.) More
specifically, Findler alleges that hundreds of
Defendants used a Facebook Group that has over “100
million members” to “terrorize, stalk, harass and
conduct psychological warfare on [him].” (Id.) Among
other things, Findler says that the Defendants
“track[ed his] movements anywhere he went, ate,
said, drank, bought, communicated,” “monitor[ed] his
facial expressions, movements, personal behavior,
voice, and sound” through the microphone and camera
in his cellular phone, obtained his “personal
information Q illegally and without cause,” and
“unlawfully electronically, intercepted],accessed],
[and] surveille[d his] phone calls, text messages,
emails and internet usage.” (Id. at ff 4, 10, ECF No.
1, PageID.4-5, 9-10.) Findler further alleges that after
he told, the FBI about the Facebook Group, the group
was mysteriously and suspiciously “deleted.” (Id. at
t9, ECF No. 1, PageID.5.) He then says that after the
Facebook Group was deleted, he went to “Tios, a
restaurant in Ann Arbor, Michigan” where a waitress
named Pam told Findler “‘[a]t least its over’ in regards
to the Facebook Group.” (Id.)

11a
On July 29, 2019, Defendants moved to dismiss
Findler’s Complaint. (See Mot. to Dismiss, ECF No.
13.) Among other things, Defendants argue that the
Court should dismiss Findler’s “for lack of subject
matter jurisdiction” under Federal Rule of Civil
Procedure 12(b)(1) because the claims are “frivolous
and implausible” (Id., PageID.69.) Defendants further
argue, in the alternative, that the Court should
dismiss Findler’s claims under Federal Rule of Civil
Procedure 12(b)(6) “because [Findler] fails to plead
sufficient factual allegations to state a plausible claim
for relief.” (Id.) Findler filed a response to the motion
on August 13, 2019 (see Resp., ECF No. 15), and he
filed an amended response on August 20, 2019. (See
ECF Nos. 18, 19.)
On September 19, 2019, Findler filed a motion for
leave to file a First Amended Complaint. (See Mot. for
Leave, ECF No. 23.) He attached a copy of his
proposed amended pleading to his motion. (See id.,
PagelD. 131-203.) Findler argues that he should be
allowed to file the First Amended Complaint in order
to correct certain grammatical and typographical
errors and “to add supporting information and facts”
to his initial allegations. (Id., PagelD. 128.)
Both motions were referred to the assigned
Magistrate Judge. (See Order, ECF No. 5.) On
November 13, 2019, the Magistrate issued a report
and recommendation (the “R&R”) in which he
recommended that the Court (1) deny Findler’s
motion for leave and (2) grant Defendants’ motion to
dismiss. (See R&R, ECF No. 26.)
The Magistrate Judge recommended that the
Court grant Defendants’ motion to dismiss. (See id.,
PageID.229-234.) The Magistrate Judge first

12a
determined that the Court “lack[ed]” subject matter
jurisdiction over Findler’s claims” because those
claims were “frivolous.” {Id., PageID.231.) He
therefore recommended that the Court grant
Defendants’ motion and dismiss Findler’s Complaint
pursuant to Federal Rule of Civil Procedure 12(b)(1).
(See id.)
The Magistrate next determined that “[e]ven if the
Court ha[d] subject matter jurisdiction over Findler’s
claims,” the Court should still dismiss those claims
pursuant to Federal Rule of Civil Procedure 12(b)(6).
{Id.) The Magistrate Judge concluded that “Findler
failjed] ... to provide any factual allegations from
which the Court [could] draw the reasonable inference
that any of the Defendants are liable for any
misconduct.” {Id., PageID.232.)
The Magistrate Judge also recommended that the
Court deny Findler’s motion for leave to file his
proposed Amended Complaint. {See id., PageID.228229.) He determined that the proposed First Amended
Complaint was “futile” because it “would still be
susceptible to dismissal for the same reasons asserted
in the pending motion to dismiss.” {Id., PageID.229.)
He further concluded that the proposed First
Amended Complaint “failed to state a claim upon
which relief could be granted.” {Id.)
Findler filed timely objections to the R&R on
November 25, 2019 (the “Objections”). {See Objections,
ECF No. 27.) Findler raises three specific objections in
the R&R: Findler “objects to the Magistrate Judge’s ...
finding that [Findler’s] Motion for Leave to File [a]
First Amended Complaint should be denied” {id.,
PagelD.243-245); Findler “objects to the Magistrate

13a
Judge’s ...finding that the Defendant’s [sic] Motion to
Dismiss should be granted under Fed. R. Civ. P. Rule
12(b)(1)” (id., PagelD.245-253); and Findler “objects to
the Magistrate Judge’s ... finding that the
Defendant’s [sic] Motion to Dismiss should be granted
under Fed. R. Civ. P. Rule 12(b)(6)” (id., PageID.253265).
The Court has carefully both reviewed Findler’s
Objections and concludes that they are without merit.
The Court therefore OVERRULES the objections,
ADOPTS the recommended disposition of the R&R,
DENIES Findler’s motion for leave to amend his
Complaint, and GRANTS Defendants’ motion to
dismiss.
Simply put, even if the Court concluded that it had
subject matter jurisdiction over Findler’s claims, and
even if the Court allowed Findler to file his proposed
First Amended Complaint, Findler still would fail to
state a cognizable claim against the Defendants. As
the Magistrate Judge aptly explained, Fidler’s
allegations against the Defendants are built on a
series of “conclusory assumptions” and inferences that
the FBI, and employees at the highest level of the FBI,
are surveilling Findler and are engaged in a massive
conspiracy to allow members of a Facebook Group to
stalk and harass him. (R&R, ECF No. 26,
PageID.234.) Crucially, what is missing from
Findler’s allegations are facts that would “raise a
reasonable expectation that discovery will reveal
evidence of illegal [conduct].” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 556 (2007). Findler has
therefore failed to “state a claim to relief that is
plausible on its face” in either his Complaint or his
proposed First Amended Complaint. Ashcroft v. Iqbal,
556 U.S. 662, 678 (2009).

14a

i

Findler responds in the Objections that his
allegations do state plausible claims because it is “self
evident” that only the FBI could be responsible for
some of the actions that were taken against him.
(Objections, EOF No. 27, PageID.244.) He further
insists that his allegations are based on “reasonabl[e]
inferences]” that the FBI was (1) aware of the
Facebook Group that Findler says was targeting him
and (2) was communicating with the members of that
group. {Id., PagelD.259-260.) The Court disagrees.
Findler’s threadbare inferences are not enough to
state viable claims against the Defendants. Nor are
Findler’s inferences and assumptions that he makes
throughout his Complaint and proposed First
Amended Complaint “reasonable.” Absent specifically
pleaded facts that could support Findler’s claims
against the Defendants, the Court cannot conclude
that those claims are either “selfevident” or plausible.
Accordingly, for all of the reasons stated above, IT
IS HEREBY ORDERED that:
Findler’s Objections to the R&R (ECF No. 27) are
OVERRULED;
The recommended disposition of the R&R (ECF
No. 26) is ADOPTED;
Findler’s motion for leave to file a First Amended
Complaint (ECF No. 23) is DENIED;
Defendants’ motion to dismiss Findler’s Complaint
(ECF No. 13) is GRANTED; and
Findler’s Complaint (ECF No. 1) is DISMISSED
WITH PREJUDICE.
s/Matthew F. Leitman
MATTHEW F. LEITMAN
UNITED STATES DISTRICT JUDGE

15a
Dated: December 20, 2019
I hereby certify that a copy of the foregoing
document was served upon the parties and/or counsel
of record on December 20, 2019, by electronic means
and/or ordinary mail.
s/Hollv A. Monda
Case Manager
(810) 341-9764

16a
Appendix D
Case No. 19-cvll498
Honorable Matthew F. Leitman
Magistrate Judge David R. Grand

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JOSEPH FINDLER IV,
Plaintiff,
vs.
CHRISTOPHER WRAY, et al,
Defendant.

REPORT AND RECOMMENDATION TO DENY
PLAINTIFFS MOTION FOR LEAVE TO FILE
FIRST AMENDED COMPLAINT [ECF No. 23]
AND GRANT DEFENDANTS’ MOTION TO
DISMISS [ECF No. 13]
In this civil action, pro se plaintiff Joseph Findler,
IV (“Findler”) alleges that since September 2018, he
has been subjected to “a widespread harassment and
stalking campaign . . .and illegal entry into his
apartment. . . conducted through a Facebook Group,

17a
which . . . has over 100 million members . . (ECF
No. 23, PageID.134.) He claims that the “Facebook
Group has been used to terrorize, stalk, harass and
conduct psychological warfare on [him], as a means to
shame him in some manner, to include tracking [his]
movements anywhere he went, ate, said, drank,
bought, communicated . . (Id.). Some of the alleged
“stalking” and “harassment” were comments people
made to him, such as “Hello,” “Hi,” and “Thank You.”
(Id.). As defendants, he names Christopher Wray
(“Wray”) and Timothy Slater (“Slater”), both of whom
hold highranking positions with the Federal Bureau
of Investigations, as well as 500 Doe defendants, at
least 100 of whom are allegedly FBI agents. (ECF No.
23.) The Honorable Matthew F. Leitman referred all
pretrial matters to the undersigned on May 29, 2019.
(ECF No. 5.)
Presently before the Court is a motion to dismiss
filed by Wray and Slater on July 29, 2019. (ECF No.
13.) Findler filed a response to this motion on August
13, 2019 (ECF No. 15), and Wray and Slater filed a
reply on August 26, 2019. (ECF No. 20.) Also, before
the Court is Findler’s motion for leave to file first
amended complaint. (ECF No. 23.) Wray and Slater
filed a response to that motion on October 3, 2016
(ECF No. 24.) and Findler filed a reply (ECF No.
25.).
A. Background
On May 22, 2019, Findler commenced this civil
action by filing a complaint against Christopher
Wray, the Director of the FBI, Timothy Slater, thenspecial agent in charge of the Detroit Field Office of
the FBI, and 500 unnamed Doe defendants, at least
100 of whom are alleged to be Special Agents of the

18a
FBI. (ECF No. 23.) Findler claims that the unnamed
special agents of the FBI created a Facebook Group
specifically to stalk and harass him. (Id. At
PageID.143-145.) He states that the members of that
group tracked his movements, accessed and stole
information and media from his electronic devices,
and published his personal information on the
Facebook Group’s webpage. (Id.) Some of the
information he said was stolen from his personal
devices allegedly include deleted emails, recordings of
his phone calls and text messages, and recordings of
his “facial expressions, movements, personal
behavior, voice and sounds.” (Id. at PageID.144.) He
also claims FBI agents made and then disclosed
“sound and/or video surveillance” of him in his car and
in several hotel rooms. (Id. At PagelD.178-179.)
Findler further alleges that Wray and Slater had
knowledge of these actions, and either helped
coordinate them or were willfully indifferent to them.
(Id. at PagelD.145-146.) Findler claims that in
committing these actions, the defendants violated his
rights under the Fourth, Fifth, and Fourteenth
Amendments, as well as his right of privacy.
On July 29, 2019, Wray and Slater filed a motion
to dismiss, arguing that Findler’s complaint should be
dismissed pursuant to Federal Rule of Civil Procedure
12(b)(1) and (b)(6), because the court lacks subject
matter jurisdiction, and because the complaint fails to
state a claim upon which relief can be granted. (ECF
No. 13, PagelD.69.) Shortly thereafter Findler filed
a motion for leave to file a first amended complaint,
along with a proposed amended complaint. (ECF No.
23.) Findler’s proposed amended complaint is very
similar to his original complaint, though it adds
certain additional allegations, such as that he became

19a
aware of the alleged surveillance in part by observing
“visually apparent and systematic modifications of
[his computers’] Android, Windows, and Linux
Operating Systems, unusual private network traffic
(10.0.0.0 /8) from his devices...[and] battery power
that would fluctuate and vary widely near
immediately at different times Q and information
provided from members of the general public about
what [he] was doing on his personally owned
electronic devices, that could have only been
ascertained if the fruits of the unlawful interception,
access, monitoring, search,
acquisition and
surveillance were being communicated to the broader
public.” (Id. at PageID.142-143.) The defendants
opposed the motion to amend, arguing that Findler’s
proposed amended complaint “adds further periphery
details, [but] does not add any factual allegations that
state a plausible claim for relief from [defendants]”
and because “the amended complaint would still be
susceptible to dismissal for the same reasons asserted
in the pending motion to dismiss . . .” (ECF No. 24,
Page ID.209-210.) Findler filed a reply insisting that
the allegations in his amended complaint “are not
implausible nor frivolous . . .” (ECF No. 25,
PageID.217.)
B. Applicable Legal Standards
1. Motion to Dismiss under Rule 12(b)(1)
A motion to dismiss pursuant to Federal Rule of
Civil Procedure 12(b)(1) tests whether the court has
subject matter jurisdiction over the complaint at
issue. Furthermore, Rule 12(b)(1) allows district
courts to “sua sponte dismiss a complaint for lack of
subject matter jurisdiction... when the allegations of a
complaint are totally implausible, attenuated,

20a
unsubstantial, frivolous, devoid of merit, or no longer
open to discussion.” Apple v. Glenn, 183 F.3d 477, 479
(6th Cir. 1999). “A case is frivolous if it lacks an
arguable basis in law or in fact.” Clay v. Metropolitan
Government, 46 Fed. Appx. 348 (6th Cir. 2002).
2. Motion to Dismiss under Rule 12(b)(6)
A motion to dismiss pursuant to Fed. R. Civ. P.
12(b)(6) tests a complaint’s legal sufficiency. “To
survive a motion to dismiss, a complaint must contain
sufficient factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its face.’” Ashcroft
v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570 (2007)). “A claim
has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the
reasonable inference that the defendant is liable for
the misconduct alleged.” Id. (citing Twombly, 550 U.S.
at 556). The plausibility standard “does not impose a
probability requirement at the pleading stage; it
simply calls for enough facts to raise a reasonable
expectation that discovery will reveal evidence of
illegal [conduct].” Twombly, 550 U.S. at 556. Put
another way, the complaint’s allegations “must do
more than create speculation or suspicion of a legally
cognizable cause of action; they must show
entitlement to relief.” League of United Latin Am.
Citizens v. Bredesen, 500 F.3d 523, 527 (6th Cir. 2007)
(emphasis omitted) (citing Twombly, 550 U.S. at 55556).
In deciding whether a plaintiff has set forth a
“plausible” claim, the court must accept the factual
allegations in the complaint as true. Id.; see also
Erickson v. Pardus, 551 U.S. 89, 94 (2007). That tenet,
however, “is inapplicable to legal conclusions.” Iqbal,

r

21a
supra at 662. “Threadbare recitals of the elements of
a cause of action, supported by mere conclusory
statements, do not suffice, ‘to prevent a complaint
from being dismissed on grounds that it fails to
comport
sufficiently
with
basic
pleading
requirements.”’ (Id. at 678); see also Twombly, 550
U.S. at 555; Howard u. City of Girard, Ohio, 346 F.
Appx. 49, 51 (6th Cir. 2009). Ultimately,
“[d]etermining whether a complaint states a plausible
claim for relief will... be a context specific task that
requires the reviewing court to draw on its judicial
experience and common sense.” Iqbal, supra, 556 U.S.
at 679.
Pleadings filed by pro se litigants are entitled to a
more liberal reading than would be afforded to formal
pleadings drafted by lawyers. See Thomas v. Eby, 481
F.3d 434, 437 (6th Cir. 2007). Nonetheless, “[t]he
leniency granted to pro se (litigants] ... is not
boundless,” Martin v. Overton, 391 F.3d 710, 714 (6th
Cir. 2004), and “such complaints still must plead
sufficient facts to show a redressable legal wrong has
been committed.” Baker v. Salvation Army, No. 09114242011 WL 1233200, at *3 (E.D. Mich. March 30,
2011).
3. Motion to Amend
Federal Rule of Civil Procedure 15 allows a party
to amend a pleading once as a matter of right “(A) 21
days after serving it, or (B) if the pleading is one. to
which a responsive pleading is required, 21 days after
service of a responsive pleading or 21 days after
service of a motion under Rule 12(b), (e), or (f),
whichever is earlier.” Fed. R. Civ. P. 15(a)(1)(A), (B).
“In all other cases, a party may amend its pleading
only with the opposing party’s written consent or the

22a
court’s leave. The court should freely give leave when
justice so requires.” Fed. R. Civ. P. 15(a)(2). Rule 15
sets forth “a liberal policy of permitting amendments
to ensure the determination of claims on their merits.”
Oleson v. United States, 27 Fed. Appx. 566, 569 (6th
Cir. 2001) (internal quotations omitted). Leave to
amend should only be denied where “the amendment
is brought in bad faith, for dilatory purposes, results
in undue delay or prejudice to the opposing party, or
would be futile.” Carson u. U.S. Office of Special
Counsel, 633 F.3d 487, 495 (6th Cir. 2011). “A
proposed amendment is futile if the amendment could
not withstand a Rule 12(b)(6) motion to dismiss.” Rose
v. Hartford Underwriters Ins. Co., 203 F.3d 417, 420
(6th Cir. 2000) (citing Thiokol Corp. v. Dep’t. of
Treasury, State of Michigan, Revenue Div., 987 F.2d
376, 382-83 (6th Cir. 1993)).
C. Analysis
1. Motion to Amend
As Findler seems to recognize, because he filed his
motion to amend (ECF No. 23.) more than 21 days
after Wray and Slater filed their motion to dismiss, he
may only amend his complaint with leave of court.
Findler’s request for leave should be denied. The
original and proposed amended complaints are very
similar. Both claim that hundreds of FBI agents
T?v»i /^1
r-i41
Lin
r<tiiTTnl-n
11 ■*<» 1 rv
fiS 11
ri w
A XXXUJLOi,
OtUIC
11X0
^i-lvai/C
umawiuii)
opicu on
information, and posted it on a Facebook Group, and
that defendants Wray and Slater, as high-level FBI
officials, displayed “deliberate indifference” to this
conspiracy. (ECF No. 1, PageID.9-10; ECF No. 23,
PageID.128, 143- 145.) Findler asserts that he
intended the proposed changes to his original
complaint “to add context [to the defendants’] actions
ttt

tt

aii

23a
or omissions [to] demonstrate a reasonable inference”
that the defendants were responsible for the conduct
alleged.” (ECF No. 23, PageID.128.) For instance, in
his amended complaint, Findler says that the
surveillance that he was subjected to was “of such an
extreme measure” that only the FBI could have been
capable of executing it. (Id. at PageID.145.) He also
seems to infer that the FBI was responsible for a
temporary deletion of the Facebook group because
FBI agents were aware of his information technology
skills and feared his discovery of the group during his
visit to an FBI field office. (Id. At PageID.142.)
The government asks the court to deny leave,
arguing that Findler’s proposed amended complaint
“adds further periphery details, [but] does not add any
factual allegations that state a plausible claim for
relief from [defendants]” and that “the amended
complaint would still be susceptible to dismissal for
the same reasons asserted in the pending motion to
dismiss . . .” (ECF No. 24, Page ID.209-210.) For the
reasons discussed below, the Court agrees with the
defendants; even if the Court were to apply the
arguments in defendants’ motion to dismiss to
Findler’s proposed amended complaint, it would
conclude that it lacks subject matter jurisdiction, and
that Findler has failed to state a claim upon which
relief can be granted. Accordingly, Findler’s proposed
amended complaint is futile, and his motion for leave
to amend (ECF No. 23.) should be denied.
2. Motion to Dismiss under Rule 12(b)(1)
Defendants first argue that the allegations in
Findler’s complaint and amended complaint are so
implausible and frivolous that the Court lacks subject
matter jurisdiction under Federal Rule of Civil

r

24a
Procedure 12(b)(1). Specifically, Defendants argue:
[Findler] believes he is being targeted by a 100 million
member Facebook Group because people say things
like “hello” and “thank you” wherever he goes. Q There
is no explanation of why this Facebook Group would
be interested in his information. [Findler] also
believes that over 100 FBI agents or employees are
also involved. He offers no explanation of why the FBI
would dedicate significant resources to intercepting
his communications. Nor is there any explanation of
how the Director of the FBI or the Special Agent in
Charge of the Detroit Field Office would be involved.
[Findler] also does not identify what information has
been intercepted, how it was intercepted, how he
knew it was intercepted by the FBI, how he knows
Defendants are aware, or even what was posted on the
Facebook Group. Instead, [Findler] details his
apparent purchase of numerous electronic devices to
avoid these actions, and his stay at various hotels to
evade surveillance. (ECF No. 13, PageID.74.)
Defendants cite several cases in which courts
dismissed claims resembling Findler’s. For instance,
in Curran v. Holder, 626 F.Supp.2d 30, 34 (D.D.C.,
2009), the plaintiff inferred that she was the victim of
espionage from the FBI from innocuous or unrelated
experiences and interactions. She claimed that the
FBI “conducted] video and electronic surveillance of
her,” as Findler does here, with no proof, but only
unreasonable, fanciful assumptions. The court held
that the plaintiffs “bizarre conspiracy theory”
allegations were “so attenuated and unsubstantial as
to be absolutely devoid of merit,” and “warrant
dismissal under Rule 12(b)(1).” Id. at 33.
Similarly, in Selvy v. Dep't of Hous. & Urban Dev.,
the plaintiffs allegations relied on the premise that “a

r

25a
vast international criminal consortium run by what
he terms “the Freemasonry movement” has wreaked
various injustices on the people of Detroit, the United
States, and the whole world and has persecuted
petitioner since he was a child.” 371 F. Supp. 2d 905,
909 (E.D. Mich. 2005). The district court held that
“[d]oubtful claims that are at least theoretically
within the realm of possibility are nevertheless
frivolous if the plaintiffs ‘basic premise, which
undergirds his entire complaint,’ is ‘fantastic and
delusional.’” Selvy, 371 F. Supp. 2d 905, 908 (E.D.
Mich. 2005) (quoting Dekoven v. Bell, 140 F. Supp. 2d
748, 761 (E.D.Mich.), affd, 22 F. App'x 496 (6th Cir.
2001)).
Findler’s allegations are similar to those in both
Curran and Selvy. He interprets comments from
strangers such as “Hello, Take Care, Are You OK, and
Hi, Thank You, and Thanks” as evidence of a vast
conspiracy against him. (ECF No. 23, PageID.134135, internal quotations omitted.) He contends
that hundreds of unidentified FBI agents and the
FBI’s Director have, for no apparent reason, conspired
to “terrorize, stalk, [and] harass [him].” (Id. At
PageID.134.) Although not quite as extreme as
allegations “that federal officials controlled the minds
of plaintiff and her family through electronic devices,”
which unquestionably do not confer subject matter
jurisdiction upon the court, Dunigan v. F.B.I., 3 F.
App'x 461, 461 (6th Cir. 2001), the “‘basic premise,
which undergirds [Findler’s] entire complaint,’ is
‘fantastic and delusional.’” Selvy, 371 F. Supp. 2d at
908. Findler’s allegations are thus frivolous. Id.
Accordingly, the Court lacks subject matter
jurisdiction over Findler’s claims, and his complaint
should be dismissed pursuant to Fed. R. Civ. P.

26a
12(b)(1).
3. Motion to Dismiss under Rule 12(b)(6)
Even if the Court has subject matter jurisdiction
over Findler’s claims, his complaint should still be
dismissed pursuant to Fed. R. Civ. P. 12(b)(6) for
failure to state a claim for relief. As noted above, to
overcome defendants’ motion to dismiss under Rule
12(b)(6), Findler’s complaint must contain sufficient
factual matter that, accepted as true, states a claim
that is plausible on its face. Iqbal, 556 U.S. at 678. “A
claim has facial plausibility when the plaintiff pleads
factual content that allows the court to draw the
reasonable inference that the defendant is liable for
the misconduct alleged.” Id. (emphasis added). The
plausibility standard “asks for more than a sheer
possibility that a defendant has acted unlawfully
...[w]here a complaint pleads facts that are ‘merely
consistent with’ a defendant's liability, it stops short
of the line between possibility and plausibility of
entitlement to relief.” Id. This determination is “a
context-specific task that requires the reviewing court
to draw on its judicial experience and common sense.”
Id. at 679. Even liberally construing Findler’s
allegations, they fail to satisfy these pleading
requirements. Findler fails in either his complaint or
amended complaint to provide any factual allegations
from which the Court can draw the reasonable
inference that any of the defendants are liable for any
misconduct. First, the Court notes that Findler has
not identified the alleged Facebook Group at issue.
Nor has he identified any specific post by any member
of that Group that targeted him or harassed him.
Instead, he seems to be claiming that

27a
wherever he goes, he encounters people who say
things to him like, “Hello,” “Take Care,” “Are You OK,”
“Hi,” “Thank You,” and “Thanks.” (ECF No. 23,
PageID.134-35.) It is simply not reasonable to infer
from such innocuous pleasantries the type of
harassment campaign that Findler subjectively
perceives.
Findler’s allegations with respect to the conduct of
the named defendants is no more concrete. He does
not allege any facts from which the Court could
reasonably infer that defendants Slater or Wray haye
violated his rights in any way. (ECF No. 13,
Page.ID77-78.)
Findler’s claim that the FBI and its agents are
responsible for violating his privacy and due process
rights seems to rest in large part on three implausible
inferences that he has subjectively drawn: 1) the
alleged Facebook Group that allegedly harassed him
was “deleted” after he called the FBI; 2) the FBI
personnel he met on January 8, 2019, behaved
suspiciously, so they must have been involved in the
alleged Facebook Group; and 3) the alleged Facebook
Group was so powerful and capable that only the FBI
could have been responsible for its actions. (ECF No.
23, PageID.137-138; PageID.139; PageID.145.)
Findler assigns great weight to his allegation that
the alleged Facebook Group that was allegedly
stalking him was deleted on the same day that he
called the FBI. He claims that he called the Detroit
Field Office of the FBI on January 7, 2019, to report
the illegal Facebook Group. (ECF No. 23,
PageID.137.) He told them he would go to their office
the next day. (Id.) Then, “later that night [Findler]
had gotten indications that the Facebook Group...was

•. ?

n .

28a
deleted.” (Id.) Later that night he went to a restaurant
where a waitress named “Pam, with an unknown last
name {] stated, ‘At least it’s over,’ regarding the
Facebook Group . .
(ECF No. 23, PageID.137.)
Findler seems to infer from this alleged sequence of
events that the FBI was responsible for the Facebook
Group and its deletion, that they wanted to hide the
group’s existence before he came in to the FBI’s office
the next day, and that they had planted “Pam” at the
restaurant to communicate with Findler. (ECF No.
23, PageID.138.) But these are hardly the type of
“reasonable inferences” the Court would have to draw
to save Findler’s complaint. To the contrary, the
inferences Findler subjectively draws are delusional
and fantastical.
Findler also suggests that the FBI’s involvement
in the Facebook Group can be inferred from
interactions that he had with FBI personnel during
his visit to their Detroit Field Office on January 8,
2019. Findler claims that he spoke to an FBI agent,
and that after he “discussed the stalking and
harassment of the group and stated that [he] believed
it was a secret Facebook Group... [the agent] corrected
[him] and stated, ‘it’s a closed Facebook Group.’” (ECF
No. 23, PageID.139.) Findler claims that “that
information could only be ascertained if [the agent]
was aware of the Facebook Group heren [sic]
identified previously.” (Id.) Findler concludes that this
alleged awareness leads to the inference that the FBI
was actively violating his constitutional rights.
Findler alleges that he spoke more to the agent about
the Facebook Group, and that after describing a
timeline of its activities, the agent said, “[a]nd then
you put in a FOIA request.” (Id.) Findler found this
suspicious, because he “had never stated anything

29a
about a FOIA request up until that point or any other
time previously,” though he alleges he had sent a FOI
request to the Department of Veteran Affairs a month
earlier (ECF No. 23, PageID.136, 139.) Once again,
Findler assumes from this alleged conversation that
this “information could only be ascertained if [the
agent] was aware of the existence of the Facebook
Group.” (Id.) However, as stated above, these
conclusory assumptions about an alleged massive
hundred-million-user Facebook Group being directed
by the FBI to stalk and harass Findler (for no
apparent reason, at that) do not allow the Court to
draw the “reasonable inference” that the FBI or its
agents had any involvement whatsoever in the alleged
Facebook Group.
Finally, Findler states that the sheer capability of
the Facebook Group means that only the FBI could be
responsible for its actions. (ECF No. 23,
PageID.145.) More specifically, he alleges,
“The...interception and monitoring was of such an
extreme measure that it would require significant
resources and manpower... only such an agency (FBI)
would have the capability to monitor, intercept, and
surveil all [the] Plaintiffs electronic communication
and devices.” (Id.) Again, this is an unreasonable
inference that this Court declines to make even under
liberal pleading standards applicable to pro se
litigants like Findler. There are simply no facts
pleaded which link the FBI or any of its agents to the
allegations in the complaint.
In sum, Findler has not provided sufficient facts
from which one could reasonably conclude that the
FBI or any of its agents (or any of the defendants, for
that matter) had any involvement whatsoever in the
alleged Facebook Group’s operation or deletion. See,

30a
Twombly, 550 U.S. at 546 (The alleged conduct needed
“further factual enhancement [to cross] the line
between possibility and plausibility of entitlement to
relief.”).
Accordingly, Findler has not pleaded sufficient
facts that allow the court to reasonably infer that any
of the defendants are liable for any of the misconduct
alleged. Accordingly, the Rule 12(b)(6) motion to
dismiss filed by defendants Wray and Slater should be
granted, and this case should be dismissed for failure
to state a claim upon which relief can be granted.
D. RECOMMENDATION
For
the
foregoing
reasons,
the
Court
RECOMMENDS that Findler’s motion for leave to
file a first amended complaint (ECF No. 23) be
DENIED, defendants Wray and Slater’s motion to
dismiss (ECF No. 13) be GRANTED, and that this
case be dismissed for failure to state a claim upon
which relief can be granted.
Dated: November 13, 2019
Ann Arbor, Michigan
s/David R. Grand
DAVID R. GRAND
United States Magistrate Judge
NOTICE TO THE PARTIES REGARDING
OBJECTIONS
Within 14 days after being served with a copy of
this Report and Recommendation and Order, any
party may serve and file specific written objections to
the proposed findings and recommendations and the
order set forth above. See 28 U.S.C. §636(b)(l); Fed. R.

31a
Civ. P. 72(b)(2); E.D. Mich. LR 72.1(d)(1). Failure to
timely file objections constitutes a waiver of any
further right of appeal. See Thomas v. Am, 474 U.S.
140, (1985); United States v. Sullivan, 431 F.3d 976,
984 (6th Cir. 2005). Only specific objections to this
Report and Recommendation will be preserved for the
Court’s appellate review; raising some objections but
not others will not preserve all objections a party may
have. See Smith v. Detroit Fed’n of Teachers Local 231,
829 F.2d 1370, 1373 (6th Cir. 1987); see also Frontier
Ins. Co. v. Blaty, 454 F.3d 590, 596-97 (6th Cir. 2006).
Copies of any objections must be served upon the
Magistrate Judge. See E.D. Mich. LR 72.1(d)(2).
A party may respond to another party’s objections
within 14 days after being served with a copy. See Fed.
R. Civ. P. 72(b)(2); 28 U.S.C. §636(b)(l). Any such
response should be concise, and should address
specifically, and in the same order raised, each issue
presented in the objections.
CERTIFICATE OF SERVICE
The undersigned certifies that the foregoing
document was served upon counsel of record and any
unrepresented parties via the Court’s ECF System to
their respective email or First Class U.S. mail
addresses disclosed on the Notice of Electronic Fifing
on November 13, 2019.
s/Eddrev Butts
Eddrey Butts
Case Manager

32a
Appendix E
CONSTITUTIONAL PROVISIONS, STATUTES
AND RULES INVOLVED
The Fourth Amendment to the United States
Constitution provides, in relevant part:
“The right of the people to be secure in their
persons, houses, papers, and effects, against
unreasonable searches and seizures shall not be
violated”. U.S. Const, amend. IV.
The Fifth Amendment to the United States
Constitution provides, in relevant part:
“No person shall be” “deprived of life, liberty, or
property, without due process of law”. U.S. Const,
amend. V.
The Fourteenth Amendment to the United States
Constitution provides, in relevant part(s):
“No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.” U.S.
Const, amend. XIV.
Article Three, Section 1 of the United States
Constitution provides, in relevant part:
“The judicial Power of the United States, shall be
vested in one supreme Court, and in such inferior
Courts as the Congress may from time to time ordain
and establish.” U.S. Const. Art. Ill, § 1.
Article Three, Section 2 of the United States
Constitution provides, in relevant part:

33a
“The judicial Power [of the United States] shall
extend to all Cases, in Law and Equity, arising
under this Constitution, the Laws of the United
States, and Treaties made, or which shall be made,
under their Authority”. U.S. Const. Art. Ill, § 2.
28 U.S.C. § 636(b)(1) provides, in relevant part:
28 U.S.C. § 636(b)(1)(B), “a judge may Q designate
a magistrate judge to conduct hearings, including
evidentiary hearings, and to submit to a judge of the
court proposed findings of fact and recommendations
for the disposition, by a judge of the court”. 28 U.S.C.
§ 636(b)(1)(B).
28 U.S.C. § 636(b)(1)(C), “the magistrate judge
shall file his proposed findings and recommendations
under subparagraph (B) with the court and a copy
shall forthwith be mailed to all parties. Within
fourteen days after being served with a copy, any
party may serve and file written objections to such
proposed findings and recommendations as provided
by rules of court. A judge of the court shall make a de
novo determination of those portions of the report or
specified proposed findings or recommendations to
which objection is made. A judge of the court may
accept, reject, or modify, in whole or in part, the
findings or recommendations made by the magistrate
judge.” 28 U.S.C. § 636(b)(1)(C).
28 U.S.C § 1331 provides:
“The district courts shall have original
jurisdiction of all civil actions arising under the
Constitution, laws, or treaties of the United States.”
28 U.S. § 1331.

34a
42 U.S.C. § 1983 provides, in relevant part:
“Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State
or Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United
States or other person within the jurisdiction thereof
to the deprivation of any rights, privileges, or
immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at
law, suit in equity, or other proper proceeding for
redress . . . 42 U.S.C. § 1983.
Federal Rule of Civil Procedure Rule 8 provides,
in relevant part:
“(a)CLAIM FOR RELIEF. A pleading that states
a claim for relief must contain:
(1) a short and plain statement of the grounds for the
court’s jurisdiction, unless the court already has
jurisdiction and the claim needs no new
jurisdictional support;
(2) a short and plain statement of the claim showing
that the pleader is entitled to relief; and
(3) a demand for the relief sought, which may include
relief in the alternative or different types of relief.”
Fed. R. Civ. P. 8(a).
Federal Rule of Civil Procedure Rule 12 provides,
in relevant part:
“If the court determines at any time that it lacks
subject-matter jurisdiction, the court must dismiss
the action.” Fed. R. Civ. P. 12(h)(3).

35a
Federal Rule of Civil Procedure Rule 15 provides,
in relevant part:
“In all other cases, a party may amend its
pleading only with the opposing party’s written
consent or the court’s leave. The court should freely
give leave when justice so requires.” Fed. R. Civ. P.
15(a)(2).
Federal Rule of Civil Procedure Rule 41 provides,
in relevant part:
“Unless the dismissal order states otherwise, a
dismissal under this subdivision (b) and any
dismissal not under this rule—except one for lack of
jurisdiction, improper venue, or failure to join a
party under Rule 19—operates as an adjudication on
the merits.” Fed. R. Civ. P. 41(b).

